             Office of Inspector General




December 5, 2006

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

KATHLEEN AINSWORTH
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:          Audit Report – Service Implications of Area Mail
                  Processing Consolidations (Report Number EN-AR-07-002)

This report presents the results of our audit of the service implications of Area Mail
Processing (AMP) consolidations (Project Number 06XG029EN000). We conducted
this audit to address a request from U.S. Postal Service management to review the
initial AMP consolidations and it is one in a series of audits.

We concluded the Postal Service could improve the way it documents service impacts
in AMP proposals and Post-Implementation Reviews (PIRs). Management did not fully
document changes to service standards (both upgrades and downgrades) in the AMP
proposals. Management also did not include an analysis of service performance data in
the AMP proposals for the affected facilities or require an analysis of actual service
performance after a consolidation for PIRs. Lastly, the consolidation proposals did not
consistently address other potential changes affecting customer service such as
collection box pick-up times, access to business mail entry units (BMEUs),1 and
changes to retail services that may be associated with AMP consolidations. We are
making four recommendations in this report.

Management agreed with our recommendations and has initiatives in progress or
planned addressing the issues in this report. Management’s comments and our
evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all
recommendations significant and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up


1
  BMEUs are areas of certain postal facilities that accept bulk mail or presorted mail from mailers. These units
include dedicated platform space, office space, and a staging area on the workroom floor.
tracking system until the OIG provides written confirmation the recommendations can
be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Tammy L.
Whitcomb, Director, Evolutionary Network Development, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    David E. Williams
    Steven R. Phelps
Service Implications of Area Mail                                      EN-AR-07-002
 Processing Consolidations



                                    TABLE OF CONTENTS

 Executive Summary                                                          i

 Part I

 Introduction                                                              1

     Background                                                            1
     Objective, Scope, and Methodology                                     2
     Prior Audit Coverage                                                  3

 Part II

 Audit Results                                                             4

     Service Standard Changes Were Not Fully Documented                    4
        Postal Service Actions                                             5
     Recommendation                                                        5
     Management’s Comments                                                 5
     Evaluation of Management’s Comments                                   6

     Analysis of Service Performance Data Was Not Completed                7
        Postal Service Actions                                             9
     Recommendation                                                        9
     Management’s Comments                                                 9
     Evaluation of Management’s Comments                                   9

     Other Customer Service Impacts Were Not Consistently
        Documented                                                        10
     Recommendations                                                      11
     Management’s Comments                                                11
     Evaluation of Management’s Comments                                  12

     Other Matters                                                        12

 Appendix A. Prior Audit Coverage                                         13

 Appendix B. Comparison of Area Mail Processing Service Standards to      15
             Service Standards Directory Analysis

 Appendix C. Management’s Comments                                        16
Service Implications of Area Mail                                                                    EN-AR-07-002
 Processing Consolidations



                                       EXECUTIVE SUMMARY
    Introduction                    The U.S. Postal Service Office of Inspector General (OIG)
                                    assessed the service impacts of the 10 Area Mail
                                    Processing (AMP) proposals to consolidate mail processing
                                    operations that had been approved at the beginning of fiscal
                                    year (FY) 2006. We conducted this audit to address a
                                    request from Postal Service management to review the
                                    initial AMP consolidations and it is one in a series of audits.

    Results in Brief                The Postal Service could improve how it documents service
                                    impacts in AMP proposals and Post-Implementation
                                    Reviews (PIRs). During our review of AMPs,2 we found
                                    discrepancies with the service standards3 section of the
                                    AMP proposals.

                                       •    Management did not fully document service standard
                                            downgrades for Periodicals, packages, and Standard
                                            Mail® in five of the six proposals.

                                       •    Management did not fully document service
                                            standards upgrades for First-Class Mail® and Priority
                                            Mail® in three of the six proposals.

                                       •    Management did not document service standard
                                            upgrades for Periodicals, packages, and Standard
                                            Mail categories in any of the six proposals.4

                                    Although evaluation of service data is important when
                                    determining the potential service impacts of a consolidation,
                                    management did not include an analysis of service
                                    performance data in the AMP proposals for the affected
                                    facilities.5 In addition, management did not require an
                                    analysis of actual service performance after a consolidation
                                    for PIRs.

                                    The consolidation proposals also did not consistently
                                    address other potential changes affecting customer service
2
  We were limited to reviewing service standard changes for six of the 10 AMPs due to Service Standard Directory
system constraints.
3
  Service standards are an expectation by the Postal Service to deliver a piece of mail to its intended destination
within a prescribed number of days, after proper deposit by the customer.
4
  AMP policy did not require documenting upgrades for Periodicals, packages, or Standard Mail.
5
  Handbook PO-408, Area Mail Processing Guidelines, issued in 1984 and reissued in April 1995, provides guidance
for consolidating operations in the mail processing network.




                                                            i
Service Implications of Area Mail                                                                 EN-AR-07-002
 Processing Consolidations


                                    such as collection box pick-up times, access to business
                                    mail entry units (BMEUs),6 and changes to retail services
                                    that may be associated with AMP consolidations.

                                    Four factors contributed to not preparing detailed service
                                    analyses. First, inadequate detail in AMP policy contributed
                                    to the differences in the service standard changes
                                    documented in the AMP proposals. Second, the
                                    requirements for analyses using service performance data
                                    and for evaluation of potential impacts on the community
                                    were only mentioned generally in the AMP policy. In
                                    addition, there was no specific methodology described for
                                    conducting the analyses. Finally, the reviews at the area
                                    and headquarters levels were not sufficiently detailed to
                                    identify any inaccuracies or the need for more service
                                    performance data in the proposals.

                                    Management needs to produce complete service data on
                                    AMP consolidations so it can support executive decisions.
                                    In addition, providing incomplete information to stakeholders
                                    could negatively affect public perception of the AMP
                                    process and reduce needed support for the Postal Service’s
                                    efforts to consolidate the mail processing network.

    Postal Service Actions          During our review, management was revising Handbook
                                    PO-408, Area Mail Processing Guidelines, and they expect
                                    to have an initial draft in early 2007. Additionally,
                                    management indicated they routinely evaluate service
                                    performance as part of everyday operations, but they did
                                    not document this information as part of the AMP proposal
                                    or the PIR.

    Summary of                      We recommended management revise AMP policy7 to
    Recommendations                 improve guidance for completing the service standards
                                    information and measuring service performance at affected
                                    plants for AMP proposals and PIRs. Additionally, we
                                    recommended management require changes to collection
                                    box pick-up times, access to BMEU operations, and
                                    changes to retail operations be documented in proposals.

6
  BMEUs are areas of certain postal facilities that accept bulk mail or presorted mail from mailers. These units
include dedicated platform space, office space, and a staging area on the workroom floor.
7
  In report EN-AR-006-001, Pasadena, California, Processing and Distribution Center Consolidation, dated
September 26, 2006, the OIG recommended management require documentation of service standard changes for all
mail classes in AMP proposals. Management agreed with this recommendation and has actions in progress to
address this issue.




                                                         ii
Service Implications of Area Mail                                                    EN-AR-07-002
 Processing Consolidations


                                    Finally, we recommended management update the
                                    Collection Point Management System to provide a historical
                                    record of changes to collection box pick-up times.

 Summary of                         Management agreed with the findings and
 Management’s                       recommendations in this report. Management is revising
 Comments                           Handbook PO-408 and expects to publish a draft in early
                                    2007. In addition, suggested enhancements to the
                                    Collection Point Management System will be submitted for
                                    consideration during the FY 2008 budget cycle.
                                    Management’s comments, in their entirety, are included in
                                    Appendix C.

 Overall Evaluation of              Management’s actions taken or planned are responsive to
 Management’s                       the recommendations and should correct the issues
 Comments                           identified in the findings.




                                                     iii
Service Implications of Area Mail                                                                    EN-AR-07-002
 Processing Consolidations


                                            INTRODUCTION
    Background                       The U.S. Postal Service’s mail processing network is one of
                                     the largest in the world, with over 179,000 employees,
                                     675 mail processing facilities, 16,750 highway network
                                     routes, 214,000 vehicles, and an operating cost of about
                                     $25 billion annually. The Postal Service has recognized
                                     the need for a comprehensive redesign of its processing
                                     and transportation network. The Postal Service’s Strategic
                                     Transformation Plan: 2006-2010 described this redesign as
                                     the Evolutionary Network Development (END). The goal of
                                     the END is to create a flexible logistics network that
                                     reduces costs, increases operational effectiveness, and
                                     improves consistency of service.

                                     The Postal Service uses Area Mail Processing (AMP)
                                     policy to consolidate mail processing functions and to
                                     eliminate excess capacity, increase efficiency, and better
                                     use resources. The Postal Service defines AMP as the
                                     consolidation of all originating and/or destinating
                                     distribution operations from one or more post offices into
                                     another automated or mechanized facility to improve
                                     operational efficiency and/or service.

                                     The Postal Service issued Handbook PO-408, Area
                                     Mail Processing Guidelines, in 1984 and reissued it in
                                     April 1995. The guidelines are designed to ensure AMP
                                     consolidations support the strategic objectives of the Postal
                                     Service, provide optimum use of available resources, and
                                     establish management’s accountability for the AMP
                                     decision. Additionally, the guidelines require management
                                     to conduct two Post-Implementation Reviews (PIRs)8 of the
                                     consolidation. Lastly, the guidelines provide a process to
                                     reverse an AMP consolidation if, for example, there is an
                                     inability to maintain service standards.

                                     The service impact an AMP consolidation will have on the
                                     community is a key consideration for the Postal Service in
                                     determining whether it should undertake a consolidation.
                                     Handbook PO-408 requires management to evaluate
                                     service impact before beginning an AMP study and again at




8
  The PIR process, as outlined in Handbook PO-408, is designed to ensure management’s accountability for
implementing an AMP. The Postal Service is to conduct these reviews after the second full quarter following
implementation of the consolidation and after the first full year following the consolidation.
                                                         1
Service Implications of Area Mail                                                                    EN-AR-07-002
 Processing Consolidations



                                     the district and area level reviews prior to submission to
                                     headquarters for approval.

                                     At the beginning of fiscal year (FY) 2006, there were
                                     10 approved AMP proposals for consolidating mail
                                     processing operations.9 As of September 2006, the
                                     Postal Service had implemented nine of them.
                                     Implementation dates ranged from January to June 2006.
                                     The 10 consolidations (with implementation dates in
                                     parentheses) are:

                                        •   Bridgeport, Connecticut (January 14, 2006)
                                        •   Northwest Boston, Massachusetts
                                            (January 14, 2006)
                                        •   Waterbury, Connecticut (January 14, 2006)
                                        •   Marysville, California (February 1, 2006)
                                        •   Greensburg, Pennsylvania (February 6, 2006)
                                        •   Monmouth, New Jersey (April 7, 2006)
                                        •   Pasadena, California (April 9, 2006)
                                        •   Mojave, California (April 16, 2006)
                                        •   Olympia, Washington (June 1, 2006)
                                        •   Kinston, North Carolina (not yet implemented).

    Objective, Scope,                Our objective was to assess the service related aspects of
    and Methodology                  the 10 AMP proposals which were pending implementation
                                     at the beginning of FY 2006. We reviewed applicable
                                     network change guidelines, including Handbook PO-408,
                                     Area Mail Processing Public Input Process, and the Area
                                     Mail Processing (AMP) Notifications Toolkit. We focused
                                     on the service impacts of the consolidations and validated
                                     the service standard changes documented in the AMP
                                     proposals. Additionally, we performed analyses using the
                                     Service Standards Directory, the External First-Class
                                     (EXFC)10 measurement system, and other Postal Service
                                     indicators of operational performance which may have an
                                     impact on service such as the 24-Hour Clock11 concept.
                                     Lastly, we evaluated service reviews the Postal Service
                                     conducted, as well as the Collection Point Management
                                     System, to determine whether they could provide

9
  Subsequent to the beginning of FY 2006, additional AMP proposals were submitted and are currently in various
stages of review and approval. We did not evaluate these other proposals in this review.
10
   The EXFC system measures First-Class Mail service performance for approximately 80 percent of the nation’s
destinating First-Class Mail volume using Origin-Destination Information System (ODIS) volume data. The ODIS
generates time-in-transit data for First-Class Mail, Priority Mail, and Package Services mail.
11
   The 24-Hour Clock concept measures various indicators of operational performance including the timeliness of
canceling the mail, processing the mail into various sorts, and trips leaving the plant to transport the mail.
                                                         2
Service Implications of Area Mail                                                   EN-AR-07-002
 Processing Consolidations


                                    information that would enhance the service impact analysis
                                    that is currently a part of the AMP proposal.

                                    We conducted this audit from June through December
                                    2006 in accordance with generally accepted government
                                    auditing standards and included such tests of internal
                                    controls as we considered necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate.

   Prior Audit Coverage             We have issued six prior related reports: one on the AMP
                                    Guidelines; two on the efficiency of mail processing
                                    operations (which included our assessment of pending
                                    AMPs at the Main Post Office [MPO] in Mansfield, Ohio,
                                    and at the Canton, Ohio, Processing and Distribution
                                    Center [P&DC]); and three on the justification and impact
                                    of AMP consolidations (at the Pasadena, California,
                                    Bridgeport, Connecticut, and Sioux City, Iowa facilities).
                                    For details of prior audit coverage, see Appendix A.




                                                   3
Service Implications of Area Mail                                                                           EN-AR-07-002
 Processing Consolidations



                                                                   AUDIT RESULTS
 Service Standard                      Management did not fully document service standard
 Changes Were Not                      changes in the AMP proposals. Previous reviews of the
 Fully Documented                      Pasadena and Bridgeport AMP consolidation proposals
                                       indicated that the worksheets documenting service standard
                                       changes were not complete. We further analyzed this
                                       condition in four of the other AMP consolidation proposals12
                                       and found management did not document all service
                                       standard changes in the approved proposals. (See
                                       Appendix B for a chart detailing the upgrades and
                                       downgrades for the six proposals.) Our analysis showed
                                       that:

                                             •    Downgrades occurred but were not documented as
                                                  required in five of the six consolidations. These
                                                  downgrades involved Periodicals, packages, and
                                                  Standard Mail® and comprised 392 three-digit ZIP
                                                  Code pairs.13

                                             •    Management did not document upgrades as required
                                                  in three of the six proposals. These upgrades
                                                  involved First-Class Mail® and Priority Mail® and
                                                  comprised 55 three-digit ZIP Code pairs.

                                             •    Additional upgrades in the Periodicals, packages,
                                                  and Standard Mail categories occurred in all six of
                                                  the consolidations, yet management did not
                                                  document them in the proposals. These upgrades
                                                  involved 482 three-digit ZIP Code pairs.

                                       Several factors contributed to the incomplete documentation
                                       of service standards changes.

                                            •    Handbook PO-408 does not require documentation of
                                                 upgrades to mail classes other than First-Class Mail
                                                 and Priority Mail in AMP proposals.




12
   We attempted to conduct this test for all 10 of the AMPs in our review; however, we were limited to six AMPs
because of Service Standards Directory system constraints.
13
   Three-digit ZIP Code pairs are the first three digits of an origination and a destination ZIP Code for a mail piece.
The first three digits of a ZIP Code identify the delivery area of a specific postal facility within a designated geographic
area.
                                                             4
Service Implications of Area Mail                                                                  EN-AR-07-002
 Processing Consolidations



                                        •    Handbook PO-408 does not provide clear guidance
                                             on the data sources and tools (such as the Service
                                             Standards Directory) for analyzing the service
                                             standards to identify all the affected ZIP Code pairs.

                                        •    The headquarters review guidance indicates that
                                             headquarters will make final arrangements for any
                                             changes to service standards. However, it does not
                                             indicate how this is to be done, whether it involves a
                                             review to ensure the proposed changes are complete,
                                             and the steps to take if errors are found during the
                                             review process.

                                    Although we do not contend the missing upgrades or
                                    downgrades would have been sufficient to change the
                                    approval decisions, it is important to ensure the proposals
                                    are complete so management can thoroughly evaluate
                                    impacts of the consolidation and make external stakeholders
                                    aware of potential service changes. Providing incomplete
                                    information to stakeholders could negatively affect public
                                    perception of the AMP process and reduce needed support
                                    for the Postal Service’s consolidation efforts. Additionally, a
                                    complete picture of the service standard changes is needed
                                    for the PIR process.

 Postal Service Actions             During our review, management was revising the AMP
                                    policy and expects to have an initial draft in early 2007.

 Recommendation                     In addition to our previous recommendations,14 we
                                    recommend that the Vice President, Network Operations:

                                         1. Improve instructions for completing the service
                                             standards worksheets by identifying sources for the
                                             data and the methodology to be used.

 Management’s                       Management agreed with this recommendation and stated
 Comments                           they are revising Handbook PO-408, Area Mail Processing
                                    Guidelines, to clarify instructions, modify worksheets, and
                                    provide data sources for completion of the worksheets
                                    concerning service standard impacts. A draft of the revised
                                    handbook will be available in early 2007.

14
   In report EN-AR-001, Pasadena, California, Processing and Distribution Center Consolidation, dated September
26, 2006, we recommended that management update Handbook PO-408 to address requirements for documenting
service standard changes for all mail classes, and requirements and methodology for reviewing AMP proposals at the
headquarters and area levels to ensure compliance with policy prior to approval. Management agreed to take action
in these areas.
                                                        5
Service Implications of Area Mail                                              EN-AR-07-002
 Processing Consolidations




 Evaluation of                      Management’s comments are responsive to the
 Management’s                       recommendation. Management’s planned actions should
 Comments                           correct the issues identified in the finding.




                                                 6
Service Implications of Area Mail                                                                      EN-AR-07-002
 Processing Consolidations




 Analysis of Service             Management did not include an analysis of service performance
 Performance Data                data in the AMP proposals. Additionally, there is no
 Was Not Completed               requirement that management document service performance
                                 data during the PIR.

                                 Our fieldwork identified several indicators management could
                                 use in the AMP process to better evaluate the service impact of
                                 a consolidation.

                                      •    The EXFC measurement system and the ODIS - The
                                           AMP guidelines require these two indicators to be
                                           analyzed and included in the narrative Executive
                                           Summary portion of the AMP proposal. However, five of
                                           the 10 proposals we reviewed did not have an Executive
                                           Summary and, of the five that had summaries, only one
                                           included EXFC or ODIS service performance data.

                                      •    The 24-Hour Clock - In February 2006, Postal Service
                                           senior management introduced this concept as a way to
                                           provide the field with key indicators that show how each
                                           operation impacts other operations, which may impact
                                           service. Management is not currently using this concept
                                           to identify potential service issues when evaluating AMP
                                           proposals.

                                      •    Postal Alpha Numeric Encoding Technique (PLANET)
                                           Codes15 - Management does not currently use this
                                           measurement technique in the AMP process, but it
                                           could prove valuable during the PIR process. PLANET
                                           codes could help determine if employees are processing
                                           local mail in time to meet overnight delivery standards.

                                 In order to determine whether a consistent analysis of service
                                 performance data could provide valuable information to
                                 management on the impacts of an AMP consolidation, we
                                 evaluated EXFC data for four of the recent consolidations.16
                                 We compared available service performance data for outgoing
                                 First-Class Mail for the third quarter FY 2006 (the first full
                                 quarter after AMP implementation17) against the same period
                                 last year data. The following charts document this comparison:

15
   This technique is also called “seeding the mail,” and involves using codes that can track mailpieces through the
plants and measure the timeliness of processing.
16
   Five of the 10 facilities consolidated under this review were non-EXFC sites and could not be evaluated. One of
the remaining five AMPs was implemented in June 2006 and data could not be evaluated.
17
   For Monmouth and Pasadena, AMP implementation dates were April 7 and 9, 2006, respectively, so the quarter
analyzed includes approximately 1 week of pre-AMP data in the FY 2006 3rd quarter data.
                                                          7
Service Implications of Area Mail                                                 EN-AR-07-002
 Processing Consolidations




 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx                                 Redacted
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxx




 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx                                 Redacted
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxx




 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx                                 Redacted
 xxxxxxxxxxxxxxxxxxxx
 xxxxxxxxxxxxxxxxxxxx
 xxx




                              Although the AMP guidance required a narrative documenting
                              service performance in the Executive Summary portion of the
                              AMP, it did not specify a methodology for consistently analyzing
                              indicators such as EXFC, ODIS, and the 24-Hour Clock to
                              measure performance for the plants involved in the
                                                8
Service Implications of Area Mail                                                  EN-AR-07-002
 Processing Consolidations


                              consolidation. Without a consistent and complete analysis, the
                              Postal Service cannot fully identify and address potential
                              service issues prior to AMP implementation. Additionally,
                              although the handbook requires the PIR to include an Executive
                              Summary that parallels the original submission package, it does
                              not contain a specific methodology for evaluating service
                              impacts as a part of the PIR.

                              Use of data such as EXFC scores, the 24-Hour Clock
                              indicators, and PLANET codes could provide the Postal Service
                              with measurable evidence of whether it has successfully
                              implemented the AMP and whether customers are receiving the
                              same or similar levels of service after consolidation.
                              Additionally, this data can help identify when other actions are
                              needed to address service issues. Lastly, this data would help
                              answer questions that external stakeholders could raise about
                              the impacts of AMP consolidations. Without this data, the
                              Postal Service may not be able to adequately evaluate whether
                              it has met the service goals and objectives of the consolidation.

 Postal Service               Management indicated they routinely evaluate service
 Actions                      performance as part of everyday operations, but do not
                              document this information as part of the AMP proposal or the
                              PIR process.

 Recommendation               We recommend the Vice President, Network Operations:

                                    2. Revise Area Mail Processing Guidelines to outline a
                                       specific methodology for measuring service
                                       performance using available data and require
                                       documentation of this analysis in the consolidation
                                       proposal and the Post-Implementation Review.

 Management’s                 Management agreed with the recommendation and stated data
 Comments                     from the EXFC Measurement system or ODIS will be required
                              to document service performance in an AMP feasibility study
                              and PIR. Management will issue draft revisions to the PO-408
                              guidelines in early 2007.

 Evaluation of                Management’s comments are responsive to the
 Management’s                 recommendation. Management’s planned actions should
 Comments                     correct the issues identified in the finding.




                                                  9
Service Implications of Area Mail                                                                       EN-AR-07-002
 Processing Consolidations




 Other Customer                  The AMP proposals did not consistently address other potential
 Service Impacts                 changes affecting customer services such as collection box
 Were Not                        pick-up times, access to business mail entry units (BMEUs)18
 Consistently                    and changes to retail service that may be associated with the
 Documented                      consolidations. Only three of the 10 AMP proposals included
                                 information on potential impacts to collection box pick-up times
                                 and none of them included information on whether potential
                                 changes would be necessary to BMEU or retail service
                                 locations. Key stakeholders have been concerned about the
                                 potential impacts in these areas as the Postal Service has been
                                 implementing the initial 10 consolidations.

                                 Handbook PO-408 required management to document probable
                                 effects on the community, management, and employees in the
                                 Executive Summary included with the required worksheets.
                                 Additionally, during the area level review of the AMP proposal,
                                 the Vice President, Area Operations, was required to ensure
                                 management fully explored and documented customer
                                 satisfaction, community impacts, and operational feasibility.

                                 However, Handbook PO-408 is not specific about the
                                 community impacts that need to be documented in the
                                 Executive Summary. Additionally, reviews of the AMP
                                 proposals performed at the local, area, and headquarters levels
                                 have not been sufficiently detailed or documented to ensure
                                 management is meeting Handbook PO-408 requirements. As a
                                 result, the community impacts on an AMP consolidation have
                                 not been consistently documented in the AMP proposals.

                                 In addition, limitations in the Collection Point Management
                                 System19 result in an inability to accurately track changes to
                                 collection box pick-up times and the reasons for those changes.
                                 Thus, the Postal Service is unable to determine when changes
                                 were made to collection box pick-up times and why they were
                                 necessary. This historical data is important in determining the
                                 actual effects of the AMP consolidation.

                                 Even though the supporting data was not included in the AMP
                                 proposal, the AMP Notifications Toolkit issued in May 2006
                                 required the Postal Service to include potential BMEU changes
                                 and retail service location changes in notifications to
                                 stakeholder groups. Additionally, the Area Mail Processing

18
   BMEUs are areas of certain postal facilities that accept bulk mail or presorted mail from mailers. These units
include dedicated platform space, office space, and a staging area on the workroom floor.
19
   This is the system the Postal Service uses to track collection boxes.
                                                          10
Service Implications of Area Mail                                                                   EN-AR-07-002
 Processing Consolidations


                                  Public Input Process20 indicated that collection box pick-up
                                  times were one of the key concerns that may arise during
                                  presentations to the community. Because management will
                                  likely provide this information to concerned stakeholders, we
                                  believe it is important to document this information in the
                                  proposal and to review it at all levels for accuracy and
                                  completeness.

                                  Inadequate specificity in documentation requirements —
                                  particularly in the community impact area of an AMP
                                  consolidation proposal — can result in data gaps that leave the
                                  Postal Service unable to consistently answer valid questions
                                  that are of interest to key stakeholders. Additionally, data
                                  regarding changes to collection box pick-up times, access to
                                  BMEUs, and the retail service locations is important data that
                                  Postal Service executives should consider as they evaluate
                                  whether to approve an AMP for implementation or whether the
                                  consolidation was effectively implemented as planned.


 Recommendations                  We recommend the Vice President, Network Operations:

                                       3. Revise Area Mail Processing Guidelines to require the
                                          Postal Service to include the impact on collection box
                                          pick-up times and any planned changes for business
                                          mail entry units and retail operations in the proposal
                                          worksheets. Additionally, the Post-Implementation
                                          Review guidance should require an analysis of the
                                          accuracy of these projected customer impacts.

                                  We also recommend that the Acting Vice President, Delivery
                                  and Retail:

                                       4. Revise the Collection Point Management System to
                                          track changes to collection box pick-up times.

 Management’s                     Management agreed with the recommendations and responded
 Comments                         they would add a worksheet and instructions addressing
                                  customer service considerations to the revised Handbook PO-
                                  408 process. Management will issue draft revisions to the PO-
                                  408 guidelines in early 2007. In addition, management stated
                                  they would submit the suggested Collection Point Management




20
     This document guides the process used to obtain customer concerns regarding a proposed consolidation.
                                                         11
Service Implications of Area Mail                                                                  EN-AR-07-002
 Processing Consolidations



                               System enhancement for consideration during the FY 2008
                               budget cycle.

 Evaluation of                 Management’s comments are responsive to recommendations
 Management’s                  3 and 4. Management’s planned actions should correct the
 Comments                      issues identified in the finding.

 Other Matters                 This report makes recommendations to improve the Postal
                               Service’s use of data to evaluate the potential and actual impact
                               of a mail processing consolidation on the community served by
                               the affected plants. It is important to note the Postal Service
                               does not currently have a system to consistently measure
                               service performance for either bulk First-Class Mail or most mail
                               processed in the non-preferential mail classes, such as
                               Standard Mail, Periodicals, and packages.21 We are limiting our
                               recommendations on measurement of service to those mail
                               classes in which management can measure service
                               performance.




21
   See the Government Accountability Office report titled Delivery Performance Standards, Measurement, and
Reporting Need Improvement (GAO-06-733, dated July 2006).
                                                       12
Service Implications of Area Mail                                          EN-AR-07-002
 Processing Consolidations



                                    APPENDIX A

                              PRIOR AUDIT COVERAGE

OIG, Area Mail Processing Guidelines (Report Number NO-AR-06-001, dated
December 21, 2005) found the AMP process was fundamentally sound,
appeared credible, and provided a PIR process to assess results from mail
processing consolidations. However, management of the AMP process and
guidance could be improved. AMPs were not processed or approved in a timely
manner, PIRs were not always conducted, and stakeholders’ resistance affected
the approval process. The report recommended the Postal Service update AMP
guidance, comply with policy, and address stakeholder resistance. Management
agreed with the findings and recommendations.

OIG, Efficiency Review of the Mansfield, Ohio, Main Post Office (Report Number
NO-AR-05-004, dated December 8, 2004) found the Postal Service could
increase operational efficiency at the Mansfield MPO by reducing 24,000 mail
processing workhours, which would allow the facility to achieve 90 percent of
targeted goals. This reduction is based on the assumption that mail volume will
not significantly change from FY 2003 levels and could produce a cost avoidance
of approximately $7.6 million based on labor savings over 10 years. We
recommended the Manager, Northern Ohio District, reduce mail processing
operations at the Mansfield MPO by 52,000 workhours based on FY 2003
workhour usage. We also recommended consolidating outgoing mail operations
into the Akron P&DC, as the Eastern Area AMP study recommended.
Management agreed and the actions planned were responsive to the issues
identified.

OIG, Efficiency Review of the Canton, Ohio, Processing and Distribution
Facility (Report Number NO-AR-05-013, dated September 22, 2005) found the
Postal Service could increase operational efficiency at the Canton Processing
and Distribution Facility (P&DF) by reducing mail processing workhours by
202,000. This reduction is based on the assumption that mail volume will not
significantly change from FY 2004 levels and could produce a cost avoidance of
approximately $64 million based on labor savings over 10 years. We
recommended the Manager, Northern Ohio District, reduce mail processing
operations at the Canton P&DF by 93,000 workhours based on FY 2004
workhour usage. We also recommended consolidating outgoing mail operations
into the Akron P&DC, thereby saving an additional 109,000 workhours.
Management agreed and the actions planned were responsive to the issues
identified.

OIG, Pasadena, California, Processing and Distribution Center
Consolidation (Report Number EN-AR-06-001, dated September 26, 2006) found
the workhour cost analysis included in the AMP proposal was supported and

                                        13
Service Implications of Area Mail                                              EN-AR-07-002
 Processing Consolidations


additional OIG analyses provided confirming evidence for the consolidation.
However, in the development, approval, and implementation of the Pasadena
AMP proposal, management did not always comply with the processes outlined
in policy and some AMP proposal data was inaccurate, incomplete, or
unsupported. The OIG recommended management revise the Pasadena AMP
proposal to document all service standard changes and transportation costs.
Additionally, we recommended that management establish central files for
approved AMP proposals and supporting documentation to facilitate PIRs.
Finally, we recommended management update AMP policy. Management
generally agreed with our recommendations and has initiatives in progress,
completed, or planned addressing the issues in this report.

OIG, Bridgeport, Connecticut, Processing and Distribution Facility Outgoing Mail
Consolidation (Report Number NO-AR-06-010, dated September 30, 2006) found
the Postal Service was justified in moving outgoing mail processing operations
from the Bridgeport P&DF to the Stamford, Connecticut P&DC. The
consolidation should have minimal impact on employees, make use of excess
mail processing capacity, reduce labor costs, increase processing efficiency, and
potentially improve delivery service. Transportation costs may increase slightly
but the consolidation will allow expansion of Bridgeport P&DF carrier operations.
The Postal Service implemented this consolidation during our audit.
Consequently, we did not make recommendations pertaining to the consolidation
itself, since our assessment supported management’s actions. However, we
identified some weaknesses in management controls over the processing and
approval of the AMP proposal and recommended that Postal Service maintain
supporting documentation and use current data for future AMP proposals.
Management agreed with our recommendations and agreed to maintain
supporting documentation and use current data.

OIG, Sioux City, Iowa, Processing and Distribution Facility Consolidation (Report
Number EN-AR-07-001, dated November 9, 2006) found the Postal Service
provided adequate support for its analyses of workhours, transportation, and
facility costs in the AMP proposal, and our additional analyses provided
confirming evidence for the consolidation. Management generally complied with
AMP guidance and maintained supporting documentation. However, we
identified some inconsistencies in AMP proposal data, and inaccurate information
may have been shared with stakeholders. We recommended that management
complete revisions to the Sioux City AMP to accurately document impacts on
employees, equipment, transportation, facilities, and service, and submit the
revised proposal to Postal Service Headquarters. Additionally, we recommended
that management communicate updated information on the Sioux City AMP
proposal to stakeholders. Finally, we recommended that management provide
detailed instructions for documenting facility information and estimating employee
relocation expenses. Management agreed with our recommendations and has
initiatives in progress, completed, or planned addressing the issues in this report.



                                         14
     Service Implications of Area Mail                                                                                                                    EN-AR-07-002
      Processing Consolidations



                                                          APPENDIX B

            COMPARISON OF AREA MAIL PROCESSING SERVICE
                          STANDARDS TO
              SERVICE STANDARDS DIRECTORY ANALYSIS

                       First-Class                          Priority                    Periodicals                      Packages                            Standard

                                       Downgrades




                                                                       Downgrades




                                                                                                        Downgrades




                                                                                                                                         Downgrades




                                                                                                                                                                         Downgrades
                                                                                        *Upgrades




                                                                                                                         *Upgrades




                                                                                                                                                             *Upgrades
                        Upgrades




                                                        Upgrades
Bridgeport AMP               0                      0              0                0          0                     0     0                   0                 0                    0
        Analysis            29                      0              9                0         67                     0   212                  53                44                    4
 Omitted in AMP             29                      0              9                0         67                     0   212                  53                44                    4

 Kinston AMP                       1                0              0                0               0           0                    0                0          0              0
        Analysis                   1                0              7                0               9          61                    0                0         11             96
 Omitted in AMP                    0                0              7                0               9          61                    0                0         11             96

Monmouth AMP                       5                0              5                0               0                0               0                0              0                0
        Analysis                   5                0              5                0               5                0               0                0              4                2
 Omitted in AMP                    0                0              0                0               5                0               0                0              4                2

Pasadena AMP                 3                      0              5                0               0                0               0                0          0                    0
        Analysis            13                      0              5                0               5                0               0                0         10                    4
 Omitted in AMP             10                      0              0                0               5                0               0                0         10                    4

 Mojave AMP                        5                0              5                0               0           0                    0                0          0              0
        Analysis                   5                0              5                0               7          76                    0                0         10             96
 Omitted in AMP                    0                0              0                0               7          76                    0                0         10             96

 Olympia AMP                       0                0              0                0          0                     0        0                       0          0                    0
        Analysis                   0                0              0                0         32                     0       30                       0         36                    0
 Omitted in AMP                    0                0              0                0         32                     0       30                       0         36                    0
       Total
    Omitted                 39                      0        16                     0    125             137             242                  53             115         202
                     * AMP policy did not require documenting upgrades for Periodicals, packages, or Standard
                     Mail.
                     Total upgrades omitted – 537; total downgrades omitted – 392.




                                                                       15
Service Implications of Area Mail                  EN-AR-07-002
 Processing Consolidations


               APPENDIX C. MANAGEMENT’S COMMENTS




                                    16
Service Implications of Area Mail        EN-AR-07-002
 Processing Consolidations




                                    17
